Case: 18-11563

Document: 00515426648 Page: 1 Date Filed: 05/22/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-11563

FILED
May 22, 2020
Lyle W. Cayde
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
MARIO PEREZ,
Defendant-Appellant

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CV-542
USDC No. 4:15-CR-271-11

Before DENNIS, ELROD, and DUNCAN, Circuit Judges.
PER CURIAM:*
Mario Perez, federal prisoner # 50701-177, pleaded guilty to conspiracy
to possess with intent to distribute more than 50 grams of a mixture or
substance containing methamphetamine, and he was sentenced to 340 months
of imprisonment. The district court denied his 28 U.S.C. § 2255 motion on the
merits without holding an evidentiary hearing. Perez now seeks a certificate
of appealability (COA).

Pursuant to 5TH CIR. R. 97.5. the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
R, 47.5.4.

Case: 18-11563

Document: 00515426648 Page: 2 Date Filed: 05/22/2020
No. 18-11563

Perez contends that his counsel provided ineffective assistance by failing
to object to the inclusion of certain information in the factual basis for his plea,
by promising he would receive a sentence of no more than 10 years of
imprisonment, by significantly underestimating his sentencing exposure, by
failing to object to the district court's failure to adequately explain its reasons
for awarding only a limited departure from the guidelines range, and for failing
to object to the limited extent of that departure. He also argues that the
district court erred by not holding an evidentiary hearing on his claims.
This court will grant a COA, which is required to appeal, only when the
movant "has made a substantial showing of the denial of a constitutional
right." 28 U.S.C. § 2253(c)(2); see Miller-El v. Cockrell, 537 U.S. 322, 336
(2003). "A petitioner satisfies this standard by demonstrating that jurists of
reason could disagree with the district court's resolution of his constitutional
claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further." Miller-El, 537 U.S. at 327.
Perez has not made the requisite showing. In addition, we lack
jurisdiction to consider claims that were not presented to the district court. See
Black v. Davis, 902 F.3d 541, 545 (5th Cir. 2018), cert. denied, 140 S. Ct. 859
(2020). Perez's motion for a COA is denied.
We construe the motion for a COA with respect to the district court's
failure to hold an evidentiary hearing as a direct appeal of that issue, see
Norman v. Stephens, 817 F.3d 226, 234 (5th Cir. 2016), and affirm
COA DENIED; AFFIRMED.

2

Case 18-11563

Document: 00515426653 Page: 2 Date Filed: 05/22/2020

Sincerely,
LYLE W. CAYCE, Clerk

By:
Nancy F. Dolly, Deputy Clerk
Enclosure(s)
Mr. Mario Perez
Ms. Leigha Amy Simonton

R?

e_to

Case 4:18-cv-00542-A Document 9 Filed 08/24/18 Pag

S. 0 TRIO- Cl R
NORTHERN INSTR61C4:1- OF TEXAS

FILED

IN THE UNITED STATES DISTRICT CO RT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION

AUG 2 4 2018

CLERK,
UnSTETRICT COURT
By

MARIO PEREZ,
Movant,
VS.

§ NO. 4:18-CV-542-A
§ (NO. 4:15-CR-271-A)

UNITED STATES OF AMERICA,
Respondent.
MEMORANDUM OPINION AND ORDER
Came on for consideration the motion of Mario Perez
("movant") under 28 U.S.C. § 2255 to vacate, set aside, or
correct sentence.' After having considered such motion , its
supporting memorandum, the government's response, and pertinent
parts of the record in Case No. 4:15-CR-271-A, styled "United
States of America v. Oscar Vasquez, et al.," the court has
concluded that the motion should be denied.
I.
Background
Information contained in the record of the underlying
criminal case discloses the following:
On December 9, 2015, movant was named, along with numerous
others, in a one-count indictment charging him with conspiracy to

'Along with his motion and memorandum in support, movant filed a motion for leave to amend
his § 2255 motion, indicating that he had earlier filed an incomplete motion based on a concern regarding
timeliness. The record does not reflect that such an incomplete motion was filed. Therefore, the motion
for leave is moot.

Case 4:18-cv-00542-A Document 9 Filed 08/24/18 Page 2 of 10 PagelD 65

possess with intent to distribute more than 50 grams of a mixture
and substance containing a detectable amount of methamphetamine,
in violation of 21 U.S.C. § 846. CR Doc.2 60. On January 21,
2016, movant appeared before the court with the intent to enter a
plea of guilty to the offense charged without benefit of a plea
agreement. CR Doc. 104. Movant and his attorney signed a factual
resume setting forth the elements of the offense, the maximum
penalty movant faced, and the stipulated facts supporting
movant's guilt. CR Doc. 105. Under oath, movant stated that no
one had made any promise or assurance of any kind to induce him
to plead guilty. Further, movant stated his understanding that
the guideline range was advisory and was one of many sentencing
factors the court could consider; that the guideline range could
not be calculated until the presentence report ("PSR") was
prepared; the court could impose a sentence more severe than the
sentence recommended by the advisory guidelines and movant would
be bound by his guilty plea; movant was satisfied with his
counsel and had no complaints regarding his representation; and,
movant and counsel had reviewed the factual resume and movant
understood the meaning of everything in it and the stipulated
facts were true. CR Doc. 324.

2The "CR Doc. " reference is to the number of the item on the docket in the underlying
criminal case, No. 4: 1 5-CR-271-A.

2

Case 4:18-cv-00542-A Document 9 Filed 08/24/18 Page 3 of 10 PagelD 66

The pretrial officer prepared a presentence report that
indicated that movant's base offense level was 38 and that three
2-level enhancements should be applied for possession of a
dangerous weapon, importation of drugs from Mexico, and
maintaining a drug premises. CR Doc. 131 11 31-34. Applying a
reduction for acceptance of responsibility left movant with a
total offense level of 41. Id. ¶ 42. Based on his criminal
history category of VI, movant's guideline imprisonment range was
360 months to life; however, the statutorily authorized maximum
sentence was 40 years, so the guideline imprisonment range became
360-480 months. Id. ¶ 94. Movant objected to the drug quantity
attributed to him. CR Doc. 256. The probation officer rejected
movant's argument, CR Doc. 166, and the court issued an order
tentatively concluding that the objection was without merit. CR
Doc. 223. At sentencing, movant persisted in his objection and
the court overruled it. CR Doc. 325 at 5-7.
The court heard testimony in support of the government's
motion for a downward departure. CR Doc. 325 at 9-33. Movant's
attorney argued that movant should receive a significant
reduction of his sentence below the recommended guideline range.
Id. at 34-36. And, movant expressed his deep sorrow and regret,
acknowledging that he had to be held accountable for his actions.
Id. at 36. The court sentenced movant to a term of imprisonment
3

Case 4:18-cv-00542-A Document 9 Filed 08/24/18 Page 4 of 10 PagelD 67

of 340 months, noting that movant would have been sentenced to at
least 400 months but for his cooperation. Id. at 37-38.
Movant appealed. CR Doc. 268. His attorney filed a motion to
withdraw along with an Anders' brief. The Fifth Circuit allowed
counsel to withdraw and dismissed the appeal as presenting no
nonfrivolous issue. United States v. Perez, 685 F. App'x 320 (5th
Cir. 2017).
II.
Grounds of the Motion
Movant urges three grounds in support of his motion, all
based on ineffective assistance of counsel. As factual support,
movant alleges:
[Ground one:] Counsel failed to challenge the factual
basis of Petitioner's plea.
[Ground two:] Counsel failed to adequately investigate
and review discovery and challenge drug quantity.
Failed to properly advise Petitioner of his rights and
what exactly would happen during debriefing.
[Ground three:] Counsel failed to actively negotiate
with the government an agreement that would properly
compensate the Petitioner for his substantial
assistance provided to law enforcement.
Doc .4 1 at PageID5 4.

'Anders v. California 386 U.S. 738 (1967).
'The "Doc, " reference is to the number of the item on the docket in this civil action.
'The "PagelD _2 reference is to the page number assigned by the court's electronic filing
(continued...)

Case 4:18-cv-00542-A Document 9 Filed 08/24/18 Page 5 of 10 PagelD 68

Standards of Review
A.

28 U.S.C. § 2255
After conviction and exhaustion, or waiver, of any right to

appeal, courts are entitled to presume that a defendant stands
fairly and finally convicted. United States v. Frady, 456 U.S.
152, 164-165 (1982); United States v. Shaid, 937 F.2d 228, 231-32
(5th Cir. 1991). A defendant can challenge his conviction or
sentence after it is presumed final on issues of constitutional
or jurisdictional magnitude only, and may not raise an issue for
the first time on collateral review without showing both "cause"
for his procedural default and "actual prejudice" resulting from
the errors. Shaid, 937 F.2d at 232.
Section 2255 does not offer recourse to all who suffer trial
errors. It is reserved for transgressions of constitutional
rights and other narrow injuries that could not have been raised
on direct appeal and would, if condoned, result in a complete
miscarriage of justice. United States v. Capua, 656 F.2d 1033,
1037 (5th Cir. Unit A Sept. 1981). In other words, a writ of
habeas corpus will not be allowed to do service for an appeal.

5 (..00ntinued)
system. The court uses this reference where the printed or typewritten page numbers do not match the
actual page of the document.

5

Case 4:18-cv-00542-A Document 9 Filed 08/24/18 Page 6 of 10 PagelD 69

Davis v. United States, 417 U.S. 333, 345 (1974); United States
v. Placente, 81 F.3d 555, 558 (5th Cir. 1996). Further, if
issues "are raised and considered on direct appeal, a defendant
is thereafter precluded from urging the same issues in a later
collateral attack." Moore v. United States, 598 F.2d 439, 441
(5th Cir. 1979) (citing Buckelew v. United States, 575 F.2d 515,
517-18 (5th Cir. 1978)).
B.

Ineffective Assistance of Counsel Claims
To prevail on an ineffective assistance of counsel claim,

movant must show that (1) counsel's performance fell below an
objective standard of reasonableness and (2) there is a
reasonable probability that, but for counsel's unprofessional
errors, the result of the proceedings would have been different.
Strickland v. Washington, 466 U.S. 668, 687 (1984); see also
Missouri v. Frye, 566 U.S. 133, 147 (2012). "[A) court need not
determine whether counsel's performance was deficient before
examining the prejudice suffered by the defendant as a result of
the alleged deficiencies." Strickland, 466 U.S. at 697; see also
United States v. Stewart, 207 F.3d 750; 751 (5th Cir. 2000).
"The likelihood of a different result must be substantial, not
just conceivable," Harrington v. Richter, 562 U.S. 86, 112
(2011), and a movant must prove that counsel's errors "so
undermined the proper functioning of the adversarial process that

Case 4:18-cv-00542-A Document 9 Filed 08/24/18 Page 7 of 10 PagelD 70

the trial cannot be relied on as having produced a just result."
Cullen v. Pinholster, 563 U.S. 170, 189 (2011) (quoting
Strickland, 466 U.S. at 686). Judicial scrutiny of this type of
claim must be highly deferential and the defendant must overcome
a strong presumption that his counsel's conduct falls within the
wide range of reasonable professional assistance. Strickland,
466 U.S. at 689. Simply making conclusory allegations of
deficient performance and prejudice is not sufficient to meet the
Strickland test. Miller v. Johnson, 200 F.3d 274, 282 ( 5th Cir.
2000).
IV.
Analysis
In his first ground, movant argues that he was not guilty of
conspiracy, which flies in the face of everything movant admitted
in open court. "Solemn declarations in open court carry a strong
presumption of verity." Blackledge v. Allison, 431 U.S. 63, 74
(1977). To be entitled to an evidentiary hearing, the defendant
must produce "independent indicia of the likely merit of [his]
allegations, typically in the form of one or more affidavits from
reliable third parties." Id.. "If, however, the defendant's
showing is inconsistent with the bulk of [his] conduct or
otherwise fails to meet [his] burden of proof in the light of
other evidence in the record, an evidentiary hearing is
7

Case 4:18-cv-00542-A Document 9 Filed 08/24/18 Page 8 of 10 PagelD 71

unnecessary." Id. See also United States v. Fuller, 769 F.2d
1095, 1099 (5" Cir. 1985). Movant's guilty plea was knowing and
voluntary and made with sufficient awareness of the relevant
circumstances and likely consequences. Bradshaw v. Stumpf, 545
U.S. 175, 183 (2005). Movant has failed to provide any
independent evidence in support of any of his contentions that
are at variance with the statements he made, or the answers he
gave, while under oath at the rearraignment hearing. The
conclusory declarations attached to his memorandum are not
entitled to any evidentiary weight.
In his second ground, movant alleges that his counsel was
ineffective for failing to investigate and review discovery and
challenge the drug quantity attributed to him. These allegations
are conclusory and insufficient to raise a constitutional claim.
Green v. Johnson, 160 F.3d 1029, 1042 (5th Cir. 1998). They are
also belied by the record, including the objection lodged to the
PSR and argued at sentencing. And, the PSR itself explains the
evidence and shows why a suppression motion would not have been
viable. In his memorandum, movant urges that his counsel was
ineffective for advising movant to plead guilty "although he was
actually innocent of conspiracy." Doc. 3 at 8. The allegation is
ludicrous and unsupported. The court observed movant and heard
his sworn testimony, concluding that his plea was knowing and
8

Case 4:18-cv-00542-A Document 9 Filed 08/24/18 Page 9 of 10 PagelD 72

voluntary. Movant waived all nonjurisdictional defects, including
claims of illegal search and seizure, by his guilty plea. United
States v. Cothran, 302 F.3d 279, 285-86 (5th Cir. 2002); Franklin
v. United States, 589 F.2d 192, 194-95 (5th Cir. 1979).
In his third ground, movant argues that his counsel failed
to negotiate a better deal for him, insinuating that he could
have received "a 50% downward departure from the 360 month
sentence he faced." Doc. 3 at 17. There is simply no evidence to
support such contention. A defendant does not have any right to
be offered a plea; nor does a judge have to accept a plea.
Missouri v. Frye, 566 U.S. at 148. And, whether to grant a
departure and the extent of the departure lie within the
discretion of the trial court. United States v. Hashimoto, 193
F.3d 840, 843 (5th Cir. 1999). Here, movant received a very
favorable sentence, one that would not have been imposed had the
court known that movant was not sincere in his remorse (as is
apparently the case). Nor would movant have received such a
favorable sentence had he not followed his counsel's advice.
V.
Order
The court ORDERS that all relief sought by movant in his
motion under 28 U.S.C. § 2255 be, and is hereby, denied.

9

Case 4:18-cv-00542-A Document 9 Filed 08/24/18 Page 10 of 10 PagelD 73

The court further ORDERS that movant's motion for leave to
amend be, and is hereby, denied as moot.
Pursuant to Rule 22(b) of the Federal Rules of Appellate
Procedure, Rule 11(a) of the Rules Governing Section 2255
Proceedings for the United States District Courts, and 28 U.S.C.
§ 2253(c) (2), for the reasons discussed herein, the court further
ORDERS that a certificate of appealability be, and is hereby,
denied, as movant has not made a substantial showing of the
denial of a constitutional right.
SIGNED August 24, 2018.

JtT McBRYDE
ited States Distric Judge

10

